       AUDIT REPORT
            12-18




    Audit of Controls over
GPO’s Fleet Credit Card Program

      September 28, 2012
Date
September 28, 2012
To
Director, Acquisition Services
From
Inspector General
Subject
Audit Report – Audit of Controls over GPO’s Fleet Credit Card Program
Report Number 12-18

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report. We consider management’s comments responsive to the
recommendations. The recommendation is resolved and will remain open pending
our verification of the completion of the agreed upon corrective actions.

We appreciate the courtesies extended to the audit staff. If you have any questions
or comments about this report, please do not hesitate to contact me at
(202) 512-0039.



Michael A. Raponi
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction ............................................................................................................. 1

Results in Brief ....................................................................................................... 1

Background ............................................................................................................ 3

Results and Recommendation ................................................................................ 4

Appendix A – Objectives, Scope, and Methodology ............................................... 11

Appendix B – Management’s Response ................................................................ 14

Appendix C – Status of Recommendations ............................................................ 15

Appendix D – Report Distribution ............................................................................ 16

Major Contributors .................................................................................................. 17
                         Office of Inspector General

Report Number 12-18                                       September 28, 2012


     Audit of Controls over GPO’s Fleet Credit Card Program

Introduction

Fleet credit cards are used to purchase fuel and minor vehicle repairs and
maintenance related to fleet vehicles owned and leased by GPO. GPO’s Office
of Acquisition Services (Acquisition Services) administers GPO’s Fleet Credit
Card Program, which includes a total of 19 fleet credit cards. For the first quarter
of FY 2012, GPO charged $14,416 for 39 GPO-owned and three GPO-
commercially leased vehicles. Fuel cost for GSA-leased vehicles is included in
the lease agreement.

The OIG initiated this audit to determine if controls over fleet credit cards were
adequate and if charges were for allowable and appropriate expenses.

Results in Brief

In an effort to strengthen internal controls over fleet credit cards, Acquisition
Services is developing a draft management directive. While the draft
management directive generally contained effective control processes and
procedures, it was not finalized. This delay has resulted in a weak control
environment and breakdowns in key internal controls which leaves GPO
vulnerable to potentially improper purchases.

For example, officials were not reviewing, approving, and reconciling monthly
charges. Separation of duties was not in place for the GPO Citibank Wright
Express (WEX) cards. Periodic assessments had not been performed and fleet
credit cardholders had not received training. For nine percent of transactions we
sampled, documentation for fleet credit card charges was not maintained or
readily available for an estimated $1,027 worth of charges. For 12 out of 263
transactions, charges were incurred for unauthorized premium grades of fuel
totaling $643.

Recommendation
We recommend that the Director for Acquisition Services mitigate risks of
potentially improper purchases by completing and implementing a written
management directive and standard operating procedure to address goals and
objectives for the Fleet Credit Card Program.
                                         1
Management’s Response

Acquisition Services concurs with the recommendation to mitigate the risk of
potentially improper purchases by completing and implementing a written
management directive and standard operating procedure to address goals and
Fleet Credit Card Program objectives and corresponding procedures.
Procedures shall include instructions similar to those listed on GSA’s website
which provides guidance for using the fleet card. The complete text of
management’s response is in Appendix B.




                                       2
Background

GPO's fleet credit cards may be used to purchase fuel and authorized
maintenance for GPO-owned and commercially-leased vehicles. Acquisition
Services administers GPO’s 19 fleet credit cards. As of December 2011, US
Bank issued 17 fleet credit cards for GPO-owned and GPO-commercially leased
vehicles. GSA issued two Citibank WEX fleet credit cards directly to GPO
employees for GSA-leased vehicles.

Federal agency purchase card programs operate under a government-wide GSA
SmartPay2 master contract. Through the GSA Smartpay2 Program, GPO
contracted with US Bank-Voyager Fleet credit cards for US Bank to issue and
cancel GPO fleet credit cards; modify individual credit card limits; track individual
card charges; issue monthly bank statements; establish individual card
restrictions; and submit invoices to GPO for payment for the GPO-owned and
GPO-commercially leased vehicles. In fiscal year (FY) 2011, GPO spent
$58,610.74 on fuel, car washes, and maintenance using its US Bank-Voyager
Fleet credit cards. For the first quarter of FY 2012 (October to December 2011),
GPO charged $14,416 for fleet credit card purchases.

Citibank WEX provides the same fleet credit card services as US Bank. The
Citibank WEX fleet credit cards are assigned to an individual GSA-leased vehicle
and can only be used for that vehicle.

The audit fieldwork was conducted from July 2011 through May 2012, at the
GPO Central Office in Washington, D.C. To achieve our objective, we conducted
interviews with GPO fleet credit cardholders, Acquisition Services personnel,
Office of Finance personnel, US Bank officials, and GSA representatives. We
reviewed related laws, regulations, and GPO management directives. We
sampled 140 from a total of 263 fleet credit card transactions from October
through December 2011 to determine if controls were adequate and if charges
were for allowable and appropriate expenses, including the grades of fuel
purchased.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Our objective, scope, and
methodology are detailed in Appendix A




                                          3
Results and Recommendation

While GPO’s draft management directive generally addressed processes and
procedures, it was not finalized. The absence of an infrastructure, such as a
management directive and standard operation procedures, to oversee the Fleet
Credit Card Program exposes GPO to increased risk of potential loss of assets.

Our audit also disclosed the absence of key controls. For example, officials were
not reviewing, approving, and reconciling monthly charges. Separation of duties
was not in place for the GPO Citibank WEX cards. Periodic assessments had not
been performed and fleet credit cardholders had not received training.
Documentation for fleet credit card charges was not always maintained or readily
available for $1,027 worth of charges in the first quarter of FY 2012. We also
noted charges were incurred for unauthorized premium grades of fuel for twelve
purchases totaling $643.

Overall Control Environment Contributed to the Breakdown in Key Fleet
Credit Card Program Controls

Acquisition Services has not established an effective internal control environment
to manage its Fleet Credit Card Program. Specifically, for the last year,
Acquisition Services did not finalize its management directive and standard
operating procedures that detailed the internal control policies and procedures
that must be followed.

As a result, key controls applicable to the Fleet Credit Card Program were not
always in place. For example, Acquisition Services lacks key controls such as:

•   Reviewing, approving, and reconciling monthly charges.
•   Segregation of duties.
•   Periodic assessments.
•   Fleet credit card training.
•   Maintaining documentation for all fleet credit card transactions.
•   GSA authorization for premium grades of fuel.

As a legislative branch agency, GPO is not required to follow any OMB circulars,
including OMB Circular Number A-123 “Management’s Responsibility for Internal
Control” or its appendixes. OMB Circular A-123, Appendix B, prescribes policies
and procedures to agencies regarding how to maintain internal controls that
reduce the risk of fraud, waste, and abuse in Government charge card programs
and requires that agencies identify specific risks with charge card programs and
implement internal controls to mitigate these risks to the greatest possible extent.
Circular A-123, Appendix B, also requires charge card managing officials to
perform transaction analysis and program trends in managing costs and other
relevant indicators of a credit card program’s performance.

                                          4
GPO Directive 825.18A, “Internal Control Program,” dated May 28, 1997,
requires GPO managers to maintain, continuously monitor, and improve effective
systems of accounting and management control related to their programs
through the performance of vulnerability assessments and internal control
reviews.

Key Controls over the Fleet Credit Card Program Need Strengthening

Our audit disclosed officials were not reviewing, approving, and reconciling
monthly charges. Also, separation of duties associated with the two Citibank
WEX fleet credit cards was not applied. Periodic assessments have not been
performed and training has not been provided to fleet credit cardholders.
Officials do not keep supporting documentation for all transactions and allowed
unauthorized purchases for premium gas.

Reviewing, Approving, and Reconciling Monthly Charges. Reviews of purchases
and reconciliations of billing statements are important control measures for the
Fleet Credit Card Program. By reviewing information on fleet credit card
purchase receipts, such as the dates and amounts of the purchases, vehicle
license numbers, vendor names and addresses, the products purchased, and
reconciliations to bank statements, officials can ensure that fleet credit card
charges are valid and accurate before they are certified for payment.

Acquisition Services receives the monthly US Bank statements that identify
individual transactions by fleet credit card number and summarizes the monthly
expenses by GPO cost code. Acquisition Services sends a copy of the bank
statements to the Office of Finance for payment, but does not send copies to the
cardholders for review and payment approval. Each cardholder maintains a daily
log of all fleet credit card transactions along with the related transaction receipts.
None of the cardholders has received a US Bank fleet credit card statement from
Acquisition Services or has been requested to verify and approve fleet credit card
charges until this audit. As a result, every month GPO pays the US Bank without
verification of the charges and approval for payment from the cardholder.

GSA issues a lease to GPO for every GSA-leased vehicle. Each lease has a
fixed monthly payment that includes the cost of leasing the vehicle, gas, repair,
and maintenance. GPO receives a monthly bill from GSA that does not identify
the individual charges for the month; just a lump sum payment request.
Acquisition Services was unaware that the monthly GSA bill included the fleet
credit card charges. We were told Acquisition Services did not develop a
separate budget for the Citibank WEX cards and does not track or verify the
Citibank WEX fleet credit card charges.




                                          5
Segregation of Duties. GPO Citibank WEX cardholders manage their own fleet
credit cards by making changes to their accounts through GSA without
notification, review, and approval by Acquisition Services. For example, the
cardholders can establish and monitor fuel, maintenance purchase exceptions,
and account notifications from GSA. However, Acquisition Services told us it has
no access to these accounts.

The GAO Internal Control Standards states that the key duties and
responsibilities need to be divided or segregated among different people to
reduce the risk of error or fraud. Segregating duties entails separating the
responsibilities for authorizing transactions, processing and recording them,
reviewing the transactions, and handling related assets.

Periodic Assessments of the Fleet Credit Card Program. Periodic assessments
such as performing transaction analysis and program trends had not been
performed. Acquisition Services did not monitor or direct the cardholders to
monitor GPO’s Fleet Credit Card Program through periodic assessments to
ensure that fleet credit cards were used efficiently and cost-effectively.

As of July 2011, Acquisition Services had issued the Chief, Operations Support
Division seven fleet credit cards. The Chief, Operations Support further
delegated responsibility for each card to the Branch Managers (Pipe, Electric,
Paint, Building Services, Power, and Garage) and used one fleet credit card as a
spare. During our interview with Operations Support personnel and a review of
the FY 2011 bank statements, we found they only needed three fleet credit cards
because there was no activity on the other four cards during the year.

Acquisition Services did not perform periodic reviews of its cardholder
information to ensure its accuracy and completeness. For example, Acquisition
Services processes all of the GPO requests for GPO- and GSA-leased vehicles
and there are different managers for each program. GSA issues the Citibank
WEX fleet credit cards directly to the GPO cardholder for GSA-leased vehicles
and the fleet credit card Program Manager was not notified when a card has
been issued. We found that GSA issued two Citibank WEX fleet credit cards
directly to GPO cardholders without the fleet credit card Program Manager’s
knowledge. The fleet credit card Program Manager does not know the total
number of Citibank WEX cards issued to GPO and the names of the GPO
Citibank WEX cardholders.

Fleet Credit Card Training. Acquisition Services did not ensure fleet credit
cardholders and users receive training. Adequate, appropriate, and timely
training provides guidance to fleet credit cardholders and users to ensure
uniformity in the uses of GPO’s fleet credit cards and compliance with laws,
regulations, policies, and procedures.



                                        6
Documentation for Fleet Credit Card Charges Not Always Maintained or Readily
Available. Our sampling of fleet credit card charges during the period October
through December 2011, showed 13 out of 140, nine percent, of transactions
could not be supported based upon available documentation. When asked to
provide documentation supporting each of the below purchases, officials were
not able to provide invoices, receipts, written justifications, evidence of approvals,
or any other type of support for the purchases made. Table 1 depicts the
detailed results of the charges.

Table 1. Detailed Charges Identified on Monthly Statements -Unsupported
Charges from October 2011 to December 2011
                                         Card     Purchase     Statement      Purchase
Number          GPO Department          Number      Date       Description     Amount
                                                               Fuel -
    1     Messenger Section              100012   10/7/2011    Unleaded        $53.19
          Messenger Section                                    Fuel -
    2                                    100012   10/7/2011    Unleaded        $60.36
          Messenger Section                                    Fuel -
    3                                    100012   10/12/2011   Unleaded        $46.39
          Messenger Section                                    Fuel -
    4                                    100012   10/18/2011   Unleaded        $49.93
          Messenger Section                                    Fuel -
    5                                    100012   10/24/2011   Unleaded        $38.76
          Messenger Section                                    Fuel -
    6                                    100012   10/28/2011   Unleaded        $46.44
          Messenger Section                                    Fuel -
    7                                    100013   10/26/2011   Unleaded        $45.00
          Messenger Section                                    Fuel -
    8                                    400011   11/18/2011   Unleaded        $49.75
          Messenger Section                                    Fuel -
    9                                    400011   11/29/2011   Unleaded        $47.65
          Messenger Section                                    Fuel - Super
   10                                    400013   11/28/2011   Unleaded        $50.00
          Environmental Services -                             Fuel - Super
   11     Police Department              400022   12/2/2011    Unleaded        $46.01
   12     Plant Operations               400005   11/2/2011    Car Wash        $24.50
   13     Plant Operations               400005   12/9/2011    Car Wash        $19.50
                                                                     Total    $577.48

The U.S. Government Accountability Office's "Standards for Internal Control in
the Federal Government," November 1999, provides the overall framework for
establishing and maintaining internal control and for identifying and addressing
major performance and management challenges and areas at greatest risk of
fraud, waste, abuse and mismanagement. Among the five standards for internal
control is "Control Activities," which help ensure that management’s directives
are carried out. Examples of control activities include (among others)

                                          7
appropriate documentation of transactions and internal control, which is defined
as:

       Internal control and all transactions and other significant events need to be
       clearly documented, and the documentation should be readily
       available for examination. The documentation should appear in
       management directives, administrative policies, or operating manuals and
       may be in paper or electronic form. All documentation and records
       should be properly managed and maintained.

Based on a statistical sample, we estimate that for the first quarter of FY 2012,
documentation for fleet credit card charges worth $1,027 were not always
maintained or readily available. If this amount were multiplied by the three
remaining quarters, it could results in $4,108 worth of unsupported charges.

Charges for Premium Grades of Fuel. Acquisition Services did not always
ensure that premium grades of fuel were authorized. Our examination of all
charges incurred during the first quarter of FY 2012 disclosed that 12 out of 263
charges or approximately eight percent were incurred for premium grades of fuel.
Table 2 depicts the detailed results of the charges. We were told the premium
grades of fuel were needed for older vehicles and maintenance equipment.
However, no authorization or documentation was available to support the
charges.

GSA requires that each fleet credit card only be used to make purchases for the
specific GSA-leased vehicle to which the card has been assigned. In general,
the fleet credit card may be used to purchase: regular unleaded self-service
gasoline (with some exceptions), minor maintenance under $100 without prior
approval (oil, fluids), and maintenance over $100 with prior GSA approval (tires,
batteries, vehicle body work).

The GSA Smartpay 2 program requires fleet credit cardholders to only make
authorized purchases for fuel, minor maintenance, and repairs of agency-owned
and commercially leased vehicles. GSA allows federal agencies to establish
additional agency-specific requirements in the agency’s own fleet credit card
policy.




                                         8
Table 2. Detailed Charges - Premium Fuel Grades from October 2011 to
December 2011
                                 Card    Purchase                              Purchase
        GPO Department          Number     Date          Item Purchased         Amount

1    Messenger Section          400013   11/28/2011   Fuel - Super Unleaded     $50.00
     Environmental Services -
2    Police Department          100022   10/12/2011   Fuel - Super Unleaded     $49.80
     Environmental Services -
3    Police Department          100022   10/14/2011   Fuel - Super Unleaded     $23.00
     Environmental Services -
4    Police Department          400022   10/28/2011   Fuel - Super Unleaded     $27.00
     Environmental Services -
5    Police Department          400022    11/3/2011   Fuel - Super Unleaded     $41.34
     Environmental Services -
6    Police Department          400022    12/2/2011   Fuel - Super Unleaded     $46.01
7    Plant Operations           100007    10/6/2011   Fuel - Super Unleaded     $70.00
8    Plant Operations           400006   10/14/2011   Fuel - Super Unleaded     $66.01
9    Plant Operations           400005   10/20/2011   Fuel - Super Unleaded     $69.01
10   Plant Operations           400005   10/25/2011   Fuel - Super Unleaded     $98.00
11   Plant Operations           400006   11/14/2011   Fuel - Super Unleaded     $60.00
     Environmental Services -
12   Police Department          400023   12/22/2011   Fuel - Super Unleaded     $43.20
                                                                       Total   $643.37


Recommendation
We recommend that the Director for Acquisition Services mitigate risks of
potentially improper purchases by completing and implementing a written
management directive and standard operating procedure to address goals and
Fleet Credit Card Program objectives and corresponding procedures.

Management’s Response

Acquisition Services concurs with the recommendation to mitigate the risk of
potentially improper purchases by completing and implementing a written
management directive and standard operating procedure to address goals and
Fleet Credit Card Program objectives and corresponding procedures.
Procedures shall include instructions similar to those listed on GSA’s website
which provides guidance for using the fleet card. The complete text of
management’s response is in Appendix B.




                                          9
Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open for reporting purposes pending
our review and verification of the implemented process.




                                      10
Appendix A - Objectives, Scope, and Methodology

We performed fieldwork from July 2011 through May 2012 at the GPO Central
Office in Washington, D.C. We conducted the audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence that will provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Objectives

The OIG initiated this audit to determine if controls over fleet credit cards were
adequate and if charges were for allowable and appropriate expenses.

Scope and Methodology

To accomplish our audit objective, we performed the following:

   •   Interviewed GPO fleet credit cardholders, Acquisition Services personnel,
       Office of Finance personnel, US Bank officials, and GSA representatives;
   •   Reviewed laws, regulations, policies, and procedures applicable to the
       GSA’s Government Fleet Credit Card Program;
   •   Reviewed and reconciled the allocation expense of the top five fleet credit
       card disbursements for FY 2011;
   •   Statistically tested fleet credit card transactions for October through
       December 2011, excluding GPO employees with Citibank WEX cards,
       taxes, and FAST (GSA fuel) report information.

Sampling Methodology

To test whether charges were for allowable and appropriate expenses, we
randomly selected a sample of 140 from a total of 263 fleet credit card charges
from October to December 2011.

We used EZ Quant Statistical Analysis Software to support our variable statistical
sampling.

EZ Quant Statistical Analysis Software was developed by the Defense Contract
Audit Agency and is used to generate sample sizes and random numbers and
estimates.




                                         11
Parameters

Universe Unit Size: 263
Universe Dollar Size: $14,416
Confidence Level: 90 percent
Sample Unit Size: 140
Sample Dollar Size: $8,104

Precision Limits

Lower Limit: $680
Upper Limit: $1,375

Point Estimate: $1,027

Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures the GPO management
implemented to reasonably ensure that processes met GPO’s objectives.

Validity and Reliability of Data – Policies and procedures that management has
implemented to reasonably ensure that valid and reliable data are obtained,
maintained, and fairly disclosed in reports.

Compliance with Laws and Regulations – Policies and procedures that
management has implemented to reasonably ensure that resource use is
consistent with laws and regulations.

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are contained in the
report narrative.

Computer Processed Data

We relied on computer-processed data from GPO’s and US Bank-Voyager Fleet
Credit Card accounting systems. Specifically, we relied on:

•   GPO’s Accounting Systems US Bank-Voyager Fleet Credit Card System
    Expenses Reports,
•   GPO’s Payment Register,
•   US Bank-Voyager Fleet Systems Account Summary Invoice Report, and
•   US Bank-Voyager Fleet Systems Account Summary Report.

                                        12
We assessed the reliability of the computer-processed data used in our analyses
by interviewing users and officials, reviewing existing information about the data,
and evaluating other pertinent program information. We also examined source
documents, compared the source documents with other information and data and
discussed the data with responsible officials. Based on our limited testing, we
determined that the management information reports were sufficiently reliable for
our audit objective.




                                        13
Appendix B – Management’s Response____________________________________




                                 14
Appendix C - Status of Recommendations


Recommendation       Resolved   Unresolved     Open/ECD*        Closed
      1                 X                    October 31, 2012

*Estimated Completion Date.




                                   15
Appendix D - Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       16
Major Contributors to the Report

Vera J. Garrant, Lead Auditor
Allyson S. Brown, Auditor




                                17
